                                     SOCIAL SECURITY
MEMORANDUM

Date:   December 31, 2009                                                      Refer To:

To:     The Commissioner

From:   Inspector General

Subject: The
           Office of Disability Adjudication and Review’s Staffing Plans Under the American
        Recovery and Reinvestment Act (A-12-09-29140)


        The attached final report presents the results of our review. Our objective was to
        assess the Social Security Administration, Office of Disability Adjudication and Review’s
        staffing plans associated with funds provided under the American Recovery and
        Reinvestment Act of 2009.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                         Patrick P. O’Carroll, Jr.

        Attachment
QUICK RESPONSE
 EVALUATION


The Office of Disability Adjudication
    and Review’s Staffing Plans
   Under the American Recovery
       and Reinvestment Act
           A-12-09-29140




          December 2009
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                              Background
OBJECTIVE
Our objective was to assess the Social Security Administration (SSA), Office of
Disability Adjudication and Review’s (ODAR) staffing plans associated with funds
provided under the American Recovery and Reinvestment Act of 2009 (ARRA).

BACKGROUND
ARRA provided SSA $500 million to process increasing retirement and disability
workloads 1 due to both the economic downturn and the baby boom retirement wave.
ODAR was allocated a portion of the ARRA funds to hire additional staff in Fiscal Years
(FY) 2009 and 2010. 2 The Agency anticipated additional hearing requests compared to
FY 2008 due to the economic downturn.

Adequate hearing office staffing will be essential for ODAR to meet its workload goals. 3
During FY 2009, ODAR processed approximately 660,800 hearing dispositions,
maintained an average processing time of 491 days, and ended the FY with a pending
level of about 722,800 cases. ODAR plans to process another 724,800 cases in
FY 2010. By FY 2013, ODAR expects to eliminate the backlog, process cases in an
overall average of 270 days, and reach a target pending level of 466,000 cases. 4
ODAR expects to accomplish this while hearing receipts are expected to steadily climb
and remain at a level exceeding 650,000 cases annually.

THE AGENCY’S ARRA PLAN

SSA is required to comply with Office of Management and Budget (OMB) Memorandum
M-09-15, Updated Implementing Guidance for the American Recovery and
Reinvestment Act of 2009, issued on April 3, 2009 (see Appendix B). It requires that

1
  Of the $500 million mentioned above, $40 million may be used for health information technology
research and activities to facilitate the adoption of electronic medical records in disability claims.
Pub. L. No. 111-5, Division A, Title VIII.
2
 This same funding will also support SSA’s Office of Operations and disability determination services
(DDS) with their increasing workloads. We reviewed their ARRA spending plans separately. See our
November 2009 report, The Office of Operations' Staffing Plans Under the American Recovery and
Reinvestment Act of 2009 (A-09-09-29157); and our December 2009 report, Disability Determination
Services' Staffing Under the American Recovery and Reinvestment Act (A-07-09-29156).
3
 We are conducting a separate review of hearing office positions, including staffing ratios and the mix of
skills among this staff. See SSA, Office of the Inspector General (OIG), Hearing Office Performance and
Staffing (A-12-08-28088).
4
 See our August 2009 report, Office of Disability Adjudication and Review Management Information
(A-07-09-29162), for more on the Agency’s efforts to reduce the backlog.


Office of Disability Adjudication and Review’s Staffing Plans Under ARRA (A-12-09-29140)                 1
program-specific ARRA plans minimally include such information as program objectives;
a funding table listing agency funding by program, project, and activity categories; kinds
and scope of activities to be performed; delivery schedule with milestones for major
phases of the program’s activities; and savings or costs. In addition, the plans must
include measures estimating expected quantifiable outcomes consistent with the intent
and requirements of ARRA. 5 Table 1 lists important dates in developing SSA’s plans for
spending ARRA funds.

                        Table 1: Workload Plans Development Timeline
            Date                                   Plan Development Stage
      April 9, 2009         Plans to Commissioner for review
      April 10, 2009        Office of Strategic Services (OSS) releases draft plans to OMB
      April 15, 2009        SSA receives OMB comments on draft plans
      April 22, 2009        OSS releases modified draft plans to OMB
      April 24, 2009        SSA receives OMB comments on modified draft plans
      April 29, 2009        OSS releases final plans to OMB1
    Note 1: The plan has been updated at least twice since the version issued to OMB on April 29, 2009.

SSA submitted a four-part plan to OMB containing an overall Agency-level plan and
three specific plans: (1) administration of the one-time $250 Economic Recovery
Payments; 6 (2) addressing disability and retirement workloads, including the
development of health information technology; and (3) building a new National Support
Center. 7 The Disability and Retirement Workload Plan addressed the allocation of
funding among the various components and programs, including funds for ODAR.

SCOPE AND METHODOLOGY

This evaluation is one of three related to SSA’s planned hiring addressing disability and
retirement workloads (staffing plan). 8 This report comments on the portion of SSA’s
staffing plans related to ODAR. The two remaining evaluations focus on staffing in the
Office of Operations and the DDSs.9 To perform our review, we spoke to ODAR budget
and management staff and reviewed staffing and budget data (see Appendix C for a
detailed scope and methodology).


5
 OMB Memorandum M-09-15, Updated Implementing Guidance for the American Recovery and
Reinvestment Act of 2009, April 3, 2009, Sections 2.7, 2.8 and Appendix 3.
6
 SSA, OIG, Economic Recovery Payments for Social Security and Supplemental Security Income
Beneficiaries (A-09-09-29143), issued May 2009.
7
 We have additional ongoing reviews addressing the one-time payments and building of a new National
Support Center.
8
  For purposes of our report, "staffing plans" has the following specific meaning—SSA's planned use of
ARRA funds to hire new employees and perform overtime to address the increasing disability and
retirement workloads.
9
    See supra footnote 2.


Office of Disability Adjudication and Review’s Staffing Plans Under ARRA (A-12-09-29140)                  2
                                                            Results of Review
SSA allocated $30 million to ODAR during FY 2009 and another $93 million in FY 2010
to hire administrative law judges (ALJ) and support staff. However, at the time of our
review, we estimated that the actual cost of the new hires will be less than ODAR
planned for FY 2009. As part of a related review of staffing plans in the Office of
Operations, the Agency recently issued an updated plan disclosing SSA’s cost
allocation methodology, as well as the impact of charging the average salary and
benefits of all ODAR employees compared to the actual costs of the new hires.

OMB accepted SSA’s plan for how it will spend ARRA resources to process additional
hearing workloads. Nonetheless, we found the final staffing plan submitted to OMB did
not provide information on a number of areas that would be useful to those relying on
the staffing plan, including
•     a clear breakout of ODAR’s allocation in FY 2010 and anticipated use of overtime;
•     the goals used to allocate new hires by location and skills; and
•     the key productivity measures for the hearings workload, as well as factors that may
      affect productivity, while new hires are coming on board and being trained.

FUNDING, NEW HIRES, OVERTIME AND SALARY COSTS
The Agency’s staffing plan provided the required information on how it planned to spend
ARRA resources to process additional hearing workloads, as required by OMB’s
guidance. However, the staffing plan did not include specifics regarding ODAR’s
FY 2010 funding and hiring, or the anticipated use of overtime. Moreover, we estimated
that actual hiring costs in FY 2009 will be lower than originally planned.

FUNDING AND NEW HIRES

The Agency’s staffing plan stated that $151 million was to be used in FY 2009 and
another $349 million in FY 2010 to address retirement and disability workloads. At the
time of our review, ODAR was allocated $30 million in FY 2009, but ODAR’s FY 2010
allocation was not discussed. While not explicitly stated in the staffing plan, in
discussions with SSA staff, we learned that another $93 million will be allocated to
ODAR in FY 2010 (see Table 2). 10 We believe this information should have been
included in the plan.




10
     Only the DDS expenditures were clearly broken out in the staffing plan for FYs 2009 and 2010.


Office of Disability Adjudication and Review’s Staffing Plans Under ARRA (A-12-09-29140)             3
                   Table 2: ODAR Planned Expenditure of ARRA Funds
      Fiscal Year                Total Funding            ODAR Funding             ODAR New Hires
          2009                    $151 million              $ 30 million                   585
          2010                    $349 million              $ 93 million                   NA
 Total                            $500 million              $123 million                   585

The staffing plan stated ODAR planned to use the $30 million allocated in FY 2009 to
hire 550 new employees, as well as 35 ALJs, by June 30, 2009. 11 In addition to these
585 new hires, ODAR hired 899 support staff and 112 ALJs in the regions and National
Hearing Centers (NHC) using funds from SSA’s FY 2009 appropriation. 12 Figure 1
illustrates ODAR’s FY 2009 staff and ALJ hiring from ARRA funds and its appropriation.
ODAR staff stated that support staff and ALJ hiring will continue. During FY 2010, the
Agency plans to hire 166 ALJs and 950 support staff and managers in the regions and
NHCs above and beyond those who leave during the year. 13

              Figure 1: Distribution of FY 2009 Hires by Source of Funding

                               ALJs                              Support Staff

                                                                                         ARRA, 550
                                            ARRA, 35




          Appropriation, 112                              Appropriation, 899



ACTUAL SALARY COSTS

ODAR designated new hires as relating to either ARRA or its regular FY 2009
appropriation with its personnel records. In August 2009, we worked with SSA’s Office
of Human Resources to obtain information on the anticipated costs of the ARRA new
hires beyond the planned amount cited in the staffing plan. Since $10 million of the

11
  This amount does not include interview, hiring, and training costs for ALJs and support staff. These
costs are paid through regular appropriations.
12
  These figures include both replacement hires as well as new position hires. These figures do not
include approximately 199 additional hires in FY 2009 at ODAR headquarters and the Office of Appellate
Operations. See Appendix D for more details on these new hires.
13
  ODAR expects to hire a total of 226 ALJs in FY 2010, replacing all ALJ losses and hiring 166 additional
judges. ODAR staff did not provide anticipated staff and manager losses during the same period.


Office of Disability Adjudication and Review’s Staffing Plans Under ARRA (A-12-09-29140)                 4
$30 million in ARRA funding was related to overtime, ODAR planned to spend
approximately $20 million in salary costs for the new ALJs and support staff. Our
review of the new hire earnings through August 14, 2009, as well as the addition of
expected earnings through the end of FY 2009, estimated that about $13 million would
be spent on new hire salaries. 14 When combined with the $10 million in overtime, at the
time of our review, we estimated ODAR would incur about $23 million in ARRA costs in
FY 2009, or about 77 percent of the FY 2009 ARRA funds allocated to ODAR.

As part of a related review, 15 SSA issued an updated plan in November 2009 disclosing
SSA’s cost allocation methodology, as well as the impact of charging the average salary
and benefits of all ODAR employees compared to the actual costs of the new hires.
This new disclosure policy will allow SSA to report the actual salary costs associated
with ODAR’s share of the ARRA funds.16

OVERTIME

ODAR staff stated the office planned to spend $10 million (33 percent) of the $30 million
in ARRA funds on overtime in FY 2009 17 and another $11 million (12 percent) of the
$93 million on overtime in FY 2010. The staffing plan states that in FY 2009,
approximately 37 percent of ARRA funds would be used for overtime to process
additional workloads, and in FY 2010 approximately 16 percent of the funds will be used
for this purpose. However, the amount of expected overtime for each component—
ODAR, Operations, and DDSs—was not clearly stated in the staffing plan. 18 Since
ODAR had such information, we believe a specific breakout of ODAR’s anticipated use
of overtime for the 2 FYs would have been useful to readers of the staffing plan.



14
  We inflated the salary costs by 20 percent to account for other Agency costs not reflected in the
employees’ salaries, such as the Agency’s portion of payroll taxes. We discussed our calculations and
adjustments with staff in the Agency’s Office of Finance.
15
  SSA, OIG, The Office of Operations' Staffing Plans Under the American Recovery and Reinvestment
Act of 2009 (A-09-09-29157), November 2009.
16
   The disclosure of additional information is consistent with the January 21, 2009, President’s
Memorandum on Transparency and Open Government as well as the December 8, 2009, OMB
Memorandum directing executive departments and agencies to take specific actions to implement the
principles of transparency, participation, and collaboration set forth in the President’s Memorandum. See
Memorandum for the Heads of Executive Departments and Agencies, Transparency and Open
Government, January 21, 2009 (74 Federal Register 4685), and OMB Memorandum M-10-06, Open
Government Directive, December 8, 2009.
17
  In our discussions with ODAR staff, we were told that for FY 2009, ODAR was authorized 455 work
years in overtime, of which 120 work years (26 percent) would be funded by ARRA.
18
   In the staffing plan, the Agency stated, “One potential barrier to effective implementation that exists
would be if SSA’s front line employees chose not to use the overtime funded by [ARRA]. To mitigate the
risk of this happening, SSA will monitor overtime usage through our regional and area offices and
redistribute overtime if necessary.”


Office of Disability Adjudication and Review’s Staffing Plans Under ARRA (A-12-09-29140)                     5
ALLOCATION OF NEW HIRES AND SKILLS
The staffing plan does not provide specific information on the allocation of new hires by
location or the skills being recruited. ODAR provided additional information on each of
these areas, some of which was available before the staffing plan was provided to
OMB.

LOCATION OF NEW HIRES

The Agency’s staffing plan noted that, “Hearing offices will hire 550 support staff as well
as 35 additional ALJs. This staff will be spread across the country to provide relief to
those offices most in need. . . .” However, the Agency’s staffing plan did not provide
additional details on the allocation of such staff to States or even regions even though
ODAR had management information that clearly indicated which hearing offices and
regions required staff.

In our early discussions with ODAR staff, we were told that all of these new hires were
to be assigned to a field location and none to Headquarters.19 In addition, we were
provided a February 27, 2009 memorandum from the Deputy Commissioner of ODAR
to the Regional Chief ALJs requesting staffing information from all components so that a
national staffing plan could be finalized by March 6, 2009. This same memorandum
provided proposed staffing allocations by regions and the NHCs. Therefore, we believe
this proposed allocation of staff by location should have been included in the staffing
plan.

In November 2009, ODAR provided updated information on where the new ALJs and
staff were placed in FY 2009 (see Table 3 and Appendix D for total hiring in FY 2009).
ODAR staff stated that all the newly hired individuals joined the Agency before
June 30, 2009. 20




19
  ODAR staff also stated that these ARRA hires were hired from outside SSA, whereas some of the hires
under the FY 2009 appropriation included existing SSA employees moving to ODAR to fill positions.
20
  ODAR staff noted that all the expected hires had accepted the job offers even though they may have
requested to start sometime after June 30, 2009.


Office of Disability Adjudication and Review’s Staffing Plans Under ARRA (A-12-09-29140)               6
          Table 3: Placement of ALJs and Support Staff Hired Under ARRA
                                    (FY 2009)
                                            Number of          Number of New
               Region                       New ALJs            Support Staff         Total Hires
 Region I: Boston                               6                   25                    31
 Region II: New York                            4                   28                    32
 Region III: Philadelphia                       4                   65                    69
 Region IV: Atlanta                             3                   138                  141
 Region V: Chicago                              8                   58                    66
 Region VI: Dallas                              2                   85                    87
 Region VII: Kansas City                        0                   16                    16
 Region VIII: Denver                            0                    6                     6
 Region IX: San Francisco                       3                   111                  114
 Region X: Seattle                              5                   18                    23
 Totals                                        35                   550                  585

The staffing plan did not discuss most of the assumptions and restraints related to
allocating staff “across the country.” For instance, SSA’s Commissioner stated in
March 2009 testimony that the Agency attempts to maintain a “. . . national average
ratio of about 4.5 support staff per ALJ.”21 In addition, ODAR staff stated that during the
component’s discussion with SSA’s Office of Budget, ODAR’s request for new hires in
FY 2009 was restricted because of space constraints in specific field locations. ODAR
staff stated some regions and hearing offices were facing space constraints because
leases were signed for 5 to 10 years and new space takes time to acquire. Accordingly,
hiring decisions at a particular ODAR location are based on total need minus space
limitations. This is one of the reasons ODAR is implementing a number of initiatives to
deal with its workload, including the addition of new hearing offices and NHCs, as well
as expanded capacity at existing locations.

Presently, ODAR operates 142 hearing offices in 10 regions nationwide. At the time of
our review, ODAR was planning to establish 13 additional hearing offices in FY 2010
(see Table 4), as well as satellite offices. 22 These hearing offices are expected to be
staffed with 111 ALJs and 585 staff employees, which is an overall staffing ratio of
approximately 5.3 staff per ALJ. ODAR also established three new NHCs during
FY 2009, and plans to open a fifth NHC in FY 2010. 23



21
  Hearing on Disability Backlogs and Related Service Delivery Issues, Prepared Testimony of
Michael J. Astrue, Commissioner of Social Security, before the Subcommittees on Social Security and
Income Security and Family Support, House Committee on Ways and Means, March 24, 2009.
22
  ODAR is expanding the Las Vegas, Nevada, Hearing Office and adding or expanding satellite offices in
Fort Meyers, Florida; Boise, Idaho; Sioux Falls, South Dakota; and Harlingen, Texas.
23
  The first NHC opened in Falls Church, Virginia, in October 2007. Additional NHCs were opened in
Albuquerque, New Mexico (March 2009); Chicago, Illinois (June 2009); and Baltimore, Maryland
(July 2009). A fifth NHC is expected to open in St. Louis, Missouri, in May 2010.


Office of Disability Adjudication and Review’s Staffing Plans Under ARRA (A-12-09-29140)              7
                       Table 4: New Hearing Offices Planned for FY 2010
                                                                    Planned 2010
                       Hearing Office Location          ALJs Staff1 Opening Date
                     Anchorage, Alaska                    2       11        February
                     St. Petersburg, Florida             11       54          May
                     Akron, Ohio                         12       58          June
                     Livonia, Michigan                   10       49          June
                     Madison, Wisconsin                   6       30          June
                     Phoenix, Arizona                     8       39          June
                     Tallahassee, Florida                 5       45          June
                     Toledo, Ohio                        10       49          June
                     Covington, Georgia                   9       45          July
                     Topeka, Kansas                       5       26          July
                     Fayetteville, North Carolina         9       58         August
                     Mt. Pleasant, Michigan              12       58         August
                     Valparaiso, Indiana                 12       63         August
                     Totals                              111      585
                   Note 1: Staff includes decision writers and other support staff.

In addition to new NHCs, ODAR is expanding video hearing capacity through a number
of other initiatives including additional video equipment in hearing offices, establishing
claimant-only video rooms, piloting representative-owned video equipment, and
incorporating desktop video units into hearing offices to assist with capacity issues.24
Moreover, ODAR is establishing centralized units to assist with administrative and
decision writing tasks and realigning hearing office service areas and/or transferring
cases among regions to accommodate backlogs until capacity can be built in the
affected areas.

SKILLS OF NEW HIRES

The staffing plan does not provide specific information on the skills of the new hires
being recruited with the exception of the breakout between support staff and ALJs.25
However, the February 27, 2009 memorandum from the Deputy Commissioner for
ODAR also provided some guidance to hearing offices on the targeted mix of skills.
The memorandum stated,

          With respect to Hearing Office [full time positions], these positions should
          be utilized in offices to provide for a minimum decision writer ratio of
          1.50 for each judge and 2.50 support staff (legal assistants, case intake
          specialists, case technicians, contact representatives, receptionists) for
          each judge subject to available space. If the [full time positions] allocation



24
  In addition, the Agency is using some of the $16 million in ARRA funding to procure additional
equipment and bandwidth for hearing offices (see Appendix E).
25
     See Appendix F for a sample hearing office organization chart.


Office of Disability Adjudication and Review’s Staffing Plans Under ARRA (A-12-09-29140)           8
         received by the Region exceeds the available space in the hearing
         offices, the region may submit a proposal for centralized regional pulling
         and/or writing units with their staffing plan.

The number of positions placed in the hearing offices, as well as the skills related to
each position, is critical in assisting ODAR with its backlog. Again, the targeted skills for
the new positions were known before the Agency’s staffing plan was released and
should have been disclosed to achieve full transparency. 26

HEARING OFFICE PRODUCTIVITY
While the Agency’s staffing plan has a hearing-related performance measure
addressing the number of additional dispositions related to new hires, it did not address
timeliness of hearings, another key measure. Moreover, the staffing plan did not
highlight the factors that may affect ODAR’s ability to increase productivity, such as the
time it takes to hire and train new staff and ALJs.

KEY PERFORMANCE MEASURES

In the staffing plan, SSA committed to only one performance measure directly related to
ODAR’s disposition of cases—the number of hearings processed (to be reported
monthly). ODAR’s processing goal, as stated in its updated staffing plan, 27 is to
process 37,000 additional hearings in FY 2009; and 88,000 additional hearings in
FY 2010. However, SSA has a number of hearing-related performance measures
related to dispositions and timeliness, which are ODAR’s two key productivity
measures, including
     •   process the budgeted number of hearings;
     •   achieve the target for number of hearings pending;
     •   achieve the target to eliminate the oldest hearings pending; and
     •   achieve the budgeted goal for average processing time in days for hearings. 28



26
   In our review of the new hires under ARRA, we determined that approximately 36 percent were
attorneys (that is, decision writers) and the remaining 64 percent were support staff (that is, case
technicians, receptionists, etc.). As noted earlier, ODAR hired beyond this number using SSA’s FY 2009
appropriation. We did not determine the final mix of skills in each hearing office as a result of this new
hiring. We are conducting a separate review of hearing office staffing that will provide more information
related to hearing office ALJ to staff ratios as well as the mix of skills in each hearing office. See SSA,
OIG, Hearing Office Performance and Staffing (A-12-08-28088).
27
   SSA posted an updated Disability and Retirement Workload Plan in mid-July with specific performance
targets after we notified them that the numeric goals associated with the performance measures had not
been provided to the public even though they had been finalized by the Agency.
28
  SSA, Annual Performance Plan for Fiscal Year 2010 and Revised Final Annual Performance Plan for
Fiscal Year 2009.


Office of Disability Adjudication and Review’s Staffing Plans Under ARRA (A-12-09-29140)                      9
We believe a timeliness measure in the staffing plan would have reemphasized the
Agency’s commitment to more timely hearings. For instance, the Agency planned to
decrease the amount of time it takes to process a hearing to 516 days in FY 2009 and
508 days in FY 2010. 29 In addition, one of the Commissioner’s ongoing initiatives is to
reduce the number of aged hearings. 30 As a result, we believe that the staffing plan
should have included these or similar performance issues.

In response to our report, SSA stated one performance measure was sufficient for
reporting ODAR’s results, noting the Agency was “. . . unable to conceptualize a
measurable metric for pending, eliminating oldest hearings, or processing time that
would meaningfully differentiate between the effects of ARRA and non-ARRA
resources.”

FACTORS RELATED TO THE METHODOLOGY

In its November 2009 update to its staffing plan, SSA stated ARRA-related overtime and
productive new hire workyears will be prorated against the ARRA-targeted workloads.
We are concerned that this methodology may not accurately measure new hires’ affect
on productivity, since new employees are not expected to be as productive as existing
employees in the short term. ODAR staff stated that productivity may not improve
initially because of the amount of time it takes for (1) new hires to reach the end of the
learning curve associated with their new duties and (2) experienced employees to train
and mentor them. On April 28, 2009, the Deputy Commissioner for Budget, Finance
and Management made similar observations in testimony addressing workload funding,
stating,

          Realistically, new employees will not have an immediate impact on our
          current or backlogged workloads, as hiring and fully training new
          employees is a lengthy and resource-intensive process . . . The time
          spent training and mentoring, however, reduces the time our more
          experienced employees have to process their own work, reducing
          productivity in the short run. 31

For example, ODAR reported it takes 10 months for an ALJ to reach the end of his/her
learning curve. In addition, ODAR estimates it may take 5 months for attorneys,



29
     At the end of FY 2009, SSA reported that hearing processing time had decreased to 491 days.
30
  SSA has undertaken 37 initiatives in 4 areas to eliminate the backlog and prevent its recurrence:
(1) compassionate allowances; (2) improving performance; (3) increasing adjudicatory capacity; and
(4) increasing efficiency with automation and business processes.

31
  Oversight Hearing on SSA’s Use of Recovery Funds, Prepared Statement of Mary Glenn-Croft,
Deputy Commissioner for Budget, Finance, and Management before the Subcommittee on Social
Security, House Committee on Ways and Means, April 28, 2009.




Office of Disability Adjudication and Review’s Staffing Plans Under ARRA (A-12-09-29140)              10
paralegal specialists and legal assistants to reach the end of their learning curves. 32
During this training and learning period, more experienced employees are expected to
train and mentor these new hires, thereby reducing the time they can spend processing
their own work. This learning curve may reduce productivity in the short term.

The Agency’s staffing plan did not make any of these observations, which would have
provided better accountability and transparency to the readers of these documents.
Moreover, pro-rating workloads to two different populations—new hires and
experienced employees—may lead to misleading results. Whereas no methodology
may completely capture the impact of new hires on the hearings workload, putting the
matter into context and adding appropriate caveats may produce more realistic
expectations among those who rely on the Agency’s planning documents.




32
  The period of classroom training depends on the position for which a person is hired. ALJs attend
4 weeks of training, whereas attorneys and paralegal specialists attend 2 weeks of training, and legal
assistants attend 1 week of training.


Office of Disability Adjudication and Review’s Staffing Plans Under ARRA (A-12-09-29140)                 11
                                    Matters for Consideration
ARRA provided SSA with $500 million to help address the increasing disability and
retirement workloads, of which $123 million was allocated to ODAR for hiring additional
personnel and for overtime. These funds will allow ODAR to fill existing offices to
capacity and process more hearings. While the Agency has developed a plan to charge
average costs for these positions, the actual costs will be lower by approximately
$7 million in FY 2009 based on our review of the actual salaries paid. We believe the
additional plan disclosures added by the Agency will help to alert readers to this
potential variance.

Moreover, while the staffing plan may have met OMB’s requirements, it did not provide
a number of details, assumptions, and context that would have provided greater
accountability and transparency to the reader. In fact, some of these details were being
shared in testimony before the final plan was submitted. Accordingly, to ensure the
planning process is transparent to the public, we believe SSA should disclose in any
future updates to the staffing plan, and/or the weekly reports posted on its ARRA
Website, the following:
•   a clear breakout of ODAR’s allocation in FY 2010 and anticipated use of overtime;
•   the goals used to allocate new ALJ and support staff hires by location and skills; and
•   the key productivity measures for the hearings workload as well as factors that may
    impact productivity while new hires are coming on board and being trained.




Office of Disability Adjudication and Review’s Staffing Plans Under ARRA (A-12-09-29140)   12
                                            Appendices
APPENDIX A – Acronyms

APPENDIX B – Office of Management and Budget Guidance

APPENDIX C – Scope and Methodology

APPENDIX D – Placement of Administrative Law Judges and Staff in Fiscal Year 2009

APPENDIX E – Additional Information Technology Investments

APPENDIX F – Sample Hearing Office Organization Chart

APPENDIX G – OIG Contacts and Staff Acknowledgments




Office of Disability Adjudication and Review’s Staffing Plans Under ARRA (A-12-09-29140)
                                                                           Appendix A

Acronyms

    ALJ                 Administrative Law Judge

    ARRA                The American Recovery and Reinvestment Act of 2009

    DDS                 Disability Determination Services

    FY                  Fiscal Year

    HOCALJ              Hearing Office Chief Administrative Law Judge

    NHC                 National Hearing Center

    ODAR                Office of Disability Adjudication and Review

    OIG                 Office of the Inspector General

    OMB                 Office of Management and Budget

    OPM                 Office of Personnel Management

    OSS                 Office of Strategic Services

    Pub. L. No.         Public Law Number

    SSA                 Social Security Administration




Office of Disability Adjudication and Review’s Staffing Plans Under ARRA (A-12-09-29140)
                                                                              Appendix B

Office of Management and Budget Guidance
The following guidance was provided in Office of Management and Budget (OMB)
Memorandum M-09-10, Initial Implementing Guidance for the American Recovery and
Reinvestment Act of 2009, February 18, 2009. 1 Agency program plans were due to
OMB no later than May 1st.

Agencies should work with their OMB representative to set an appropriate submission
date and review process. These separate plans are required for each American
Recovery and Reinvestment Act of 2009 (ARRA) program specifically named in the
legislation and corresponding to new Treasury accounts established. To the extent
possible, each agency’s Recovery Program Plan should be a summary of the specific
ARRA projects and activities planned.

Each Recovery Program Plan must minimally include the following.

Funding Table: Agency funding listed by program, project, and activity categories, as
possible. Funds returned to the program or any offsetting collections received as a
result of carrying out recovery actions are to be specifically identified.

Objectives: A general description of the program’s ARRA objectives and relationships
with corresponding goals and objectives through ongoing agency programs/activities.
Expected public benefits should demonstrate cost-effectiveness and be stated in
concise, clear, and plain language targeted to an audience with no in-depth knowledge
of the program. To the extent possible, ARRA goals should be expressed in the same
terms as program goals in departmental Government Performance and Results Act
strategic plans.

Activities: Kinds and scope of activities to be performed (for example, construction,
provision of services, conduct of research and development, assistance to
governmental units or individuals, etc.).

Characteristics: Types of financial awards to be used (with estimated amount of
funding for each), targeted type of recipients, beneficiaries and estimated dollar
amounts of total ARRA funding for Federal in-house activity, non-Federal recipients and
methodology for award selection.

Delivery Schedule: Schedule with milestones for major phases of the program’s
activities (for example, the procurement phase, planning phase, project execution
phase, etc., or comparable) with planned delivery date(s).

1
 OMB updated this guidance on April 3, 2009 in M-09-15, Updated Implementing Guidance for the
American Recovery and Reinvestment Act of 2009.


Office of Disability Adjudication and Review’s Staffing Plans Under ARRA (A-12-09-29140)        B-1
Environmental Review Compliance: Description of the status of compliance with
National Environmental Policy Act, National Historic Preservation Act, and related
statutes.

Savings or Costs: Expected increases or reductions in future operational costs (for
example, savings due to energy efficient facilities or increased operational costs as a
result of having more buildings to manage and maintain).

Measures: Expected quantifiable outcomes consistent with the intent and requirements
of the legislation and the risk management requirements of Section 3.5, with each
outcome supported by a corresponding quantifiable output(s) (in terms of incremental
change against present level of performance of related agency programs or
projects/activities specified in the plan) – agencies must specify the length of the period
between measurements (for example, monthly, quarterly), the measurement
methodology, and how the results will be made accessible to the public. The measures
currently used to report program performance in relationship to these goals (consistent
with Administration policy) should be retained. In addition to reducing the burden on
grant recipients and contractors, use of existing measures will allow the public to see
the marginal performance impact of ARRA investments.

Monitoring/Evaluation: Description of the agency process for periodic review of the
program’s progress to identify areas of high risk, high and low performance, and any
plans for longer term impact evaluation.

Transparency: Description of agency program plans to organize program cost and
performance information available at applicable recipient levels.

Accountability: Description of agency program plans for holding managers
accountable for achieving ARRA program goals and improvement actions identified.

Barriers to Effective Implementation: A list and description of statutory and
regulatory requirements, or other known matters that may impede effective
implementation of ARRA activities and proposed solutions to resolve by a certain date.

Federal Infrastructure Investments: A description of agency plans to spend funds
effectively to comply with energy efficiency and green building requirements and to
demonstrate Federal leadership in sustainability, energy efficiency and reducing the
agency’s environmental impact.




Office of Disability Adjudication and Review’s Staffing Plans Under ARRA (A-12-09-29140)   B-2
                                                                                   Appendix C

Scope and Methodology
To accomplish our objective, we:

•   Reviewed the provisions related to the Social Security Administration (SSA) in the
    American Recovery and Reinvestment Act of 2009 (ARRA) as well as Office of
    Management and Budget Memorandums providing guidance to agencies
    implementing provisions under ARRA.

•   Reviewed testimony before Congress by the Commissioner and Deputy
    Commissioner of SSA as well as other relevant testimonies.

•   Reviewed, analyzed, and assessed SSA’s draft, final, and updated staffing plans
    associated with funds provided under ARRA for additional staffing for the Office of
    Disability Adjudication and Review (ODAR).

•   Reviewed and analyzed SSA’s draft methodology for tracking and reporting ARRA
    performance measures.

•   Reviewed ODAR’s staffing data for Fiscal Years 2008, 2009, and 2010 as well as
    ODAR’s draft Service Delivery Plan.

•   Discussed staffing and funding issues with staff within ODAR and the Office of
    Budget, Finance and Management.

We did not perform an assessment of the reliability of the workload and hiring data cited
in this review. We performed our review from April through November 2009 in Falls
Church, Virginia. We conducted our review in accordance with the President’s Council
on Integrity and Efficiency’s 1 Quality Standards for Inspections.




1
  In January 2009, the President’s Council on Integrity and Efficiency was superseded by the Council of
the Inspectors General on Integrity and Efficiency, Inspector General Reform Act of 2008, Pub. L. No.
110-409 § 7, 5 U.S.C. App. 3 § 11.


Office of Disability Adjudication and Review’s Staffing Plans Under ARRA (A-12-09-29140)
                                                                                     Appendix D

Placement of Administrative Law Judges and
Staff in Fiscal Year 2009
The tables below provide information on the placement of both administrative law
judges (ALJ) and hearing office support staff funded by either the American Recovery
and Reinvestment Act of 2009 (ARRA) or the Fiscal Year (FY) 2009 Agency
appropriation.

                       Table D-1: Placement of New ALJs in FY 2009
                                                    Number of            Number of
                                                    Hires Under          Hires Under           Total
                    Region                             ARRA             Appropriation          Hires1
 Region I: Boston                                         6                    2                  8
 Region II: New York                                      4                    8                 12
 Region III: Philadelphia                                 4                    20                24
 Region IV: Atlanta                                       3                    29                32
 Region V: Chicago                                        8                    17                25
 Region VI: Dallas                                        2                    10                12
 Region VII: Kansas City                                  0                    4                  4
 Region VIII: Denver                                      0                    0                  0
 Region IX: San Francisco                                 3                    14                17
 Region X: Seattle                                        5                    6                 11
 Baltimore National Hearing Center                        0                    2                  2
 Totals                                                   35                  1122              147
Note 1: The planned number of hires dropped from 157 to 153 after the Agency determined that 4
candidates did not meet the Agency’s requirements. Of the 153 ALJ selections, 6 offers were declined.
Office of Disability Adjudication and Review (ODAR) staff stated the Agency was awaiting a new ALJ list
from the Office of Personnel Management.
Note 2: ODAR reported that 61 of the 118 hires under the FY 2009 appropriation were promotions from
within SSA. An additional 6 Senior ALJs hired in FY 2009 are not included in the table above. ODAR
staff said these Senior ALJs should not be included in the total ALJ hires since the positions are not full
time permanent positions.




Office of Disability Adjudication and Review’s Staffing Plans Under ARRA (A-12-09-29140)                 D-1
           Table D-2: Placement of Hearing Office Support Staff in FY 2009
                                                                Number of Hires
                                          Number of Hires           Under
                Region                     Under ARRA            Appropriation1           Total Hires
 Region I: Boston                                 25                     28                    53
 Region II: New York                              28                     69                    97
 Region III: Philadelphia                         65                    111                   176
 Region IV: Atlanta                              138                    215                   353
 Region V: Chicago                                58                     96                   154
 Region VI: Dallas                                85                     79                   164
 Region VII: Kansas City                          16                     42                    58
 Region VIII: Denver                               6                     26                    32
 Region IX: San Francisco                        111                    109                   220
 Region X: Seattle                                18                     39                    57
 National Hearing Centers                          0                     85                    85
 Totals                                           550                   899 2                1,449
Note 1: The new hire figures do not include approximately 199 hires at ODAR headquarters and the
Office of Appellate Operations hired in FY 2009.
Note 2: This number includes permanent and temporary hires external to SSA plus reassignments,
conversion, and promotions into ODAR from outside ODAR through September 30, 2009. It excludes
students and ceiling exempt employees. In addition, if an individual was hired by the Agency, left and
then returned they will be counted as two gains, though the number of employees in this situation is
insignificant.




Office of Disability Adjudication and Review’s Staffing Plans Under ARRA (A-12-09-29140)                 D-2
                                                                            Appendix E

Additional Information Technology Investments
The Social Security Administration (SSA) allocated $16 million of the American
Recovery and Reinvestment Act of 2009 funds to support the technology in hearing
offices and other components. These investments will support the expansion of SSA’s
field operations as it hires more staff and administrative law judges.


             Table E-1: Planned Expenditures to Expand Video Hearings
                         Items to be Procured                          Estimated Cost
     Bandwidth for hearing offices                                             $ 589,489
     Workstations, workstation software, printers and servers                  5,540,645
     Digital recording units for hearing rooms                                   770,000
     Video teleconferencing sites including fax machines                       2,872,028
     Disability determination services iSeries upgrades                        5,900,364
     Reserve (in case actual costs exceed estimates)                             327,474
     Total                                                                    $16,000,000




Office of Disability Adjudication and Review’s Staffing Plans Under ARRA (A-12-09-29140)
                                                                                                Appendix F

Sample Hearing Office Organization Chart

                                                        HOCALJ
               ALJ         ALJ           ALJ                                    ALJ           ALJ        ALJ




                                                     Hearing Office
                                                       Director


                                                         Group
                                                       Supervisor




                                  Lead Case Technician         Attorney Advisers              Senior Attorney
                                  Senior Case Technicians      Paralegal Analysts             Advisors
                                  Case Technicians


        Receptionist                                                  Hearing Office Systems Administrator

        Case Intake Analyst
                                                                                     Administrative Assistant
        Contact Representative

                                                                                    Non-SSA Personnel
                 = Management
                                                                                    Claimant Representatives
                                                                                    Hearing Reporters
                 = Bargaining Unit Position                                         Interpreters
                                                                                    Medical Experts
                 = Non-bargaining Position                                          Vocational Experts




Office of Disability Adjudication and Review’s Staffing Plans Under ARRA (A-12-09-29140)
                                                                           Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Walter Bayer, Director, Chicago Audit Division

   Nicholas Milanek, Audit Manager, Falls Church Office

Acknowledgments
In addition to those named above:

   Ehab Bestawrose, Auditor-in-Charge

   Mary Ann Braycich, Senior Program Analyst

   Faisal Khan, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-12-09-29140.




Office of Disability Adjudication and Review’s Staffing Plans Under ARRA (A-12-09-29140)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
